TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Internal Revenue Service’s Federal
                   Financial Management Improvement Act
                  Remediation Plan As of December 31, 2006



                                           May 21, 2007

                              Reference Number: 2007-10-077




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                May 21, 2007


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Internal Revenue Service’s Federal Financial
                                 Management Improvement Act Remediation Plan As of
                                 December 31, 2006 (Audit # 200710010)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Federal
 Financial Management Improvement Act of 1996 (FFMIA)1 remediation plan as of
 December 31, 2006. The overall objective of this review was to report to Congress, as required
 by the FFMIA, any instances of and reasons for missed intermediate target dates established in
 the IRS’ remediation plan. We also evaluated whether the IRS is meeting its responsibilities in
 fulfilling the intent of the FFMIA. The review was performed to meet our requirement under the
 FFMIA that states, in general, that each Inspector General shall report to Congress instances
 when and reasons why an agency has not met the intermediate target dates established in the
 remediation plan.

 Impact on the Taxpayer
 Our analysis of the December 31, 2006, FFMIA remediation plan indicated that the Fiscal Year
 (FY) 2007 cost calculations related to computer security remediation actions, totaling
 $58.5 million, could either not be verified or differed significantly from the detailed supporting
 documentation provided by the IRS. If costs are not accurately estimated and budgeted for, it
 could delay the completion of the remediation actions due to insufficient resources being
 available when needed. Until these actions are taken, the weaknesses in the IRS’ financial
 management system related to computer security issues will continue to exist. Reliable financial
 information is critical to the IRS’ ability to accurately report on the results of its operations to
 both internal and external stakeholders, including taxpayers.

 1
     Pub. L. No. 104-208, 110 Stat. 3009.
                The Internal Revenue Service’s Federal Financial Management
                 Improvement Act Remediation Plan As of December 31, 2006




Synopsis
During Calendar Year 2006, the IRS reported it canceled 11 and added 61 remedial actions to the
38 open remedial actions listed in its December 31, 2005, remediation plan. The 11 canceled
remedial actions related to computer security and were replaced by new remedial actions. Also,
during Calendar Year 2006, the IRS reported it completed 37 remedial actions, leaving 51 open
remedial actions in its December 31, 2006, remediation plan.
Our review of the 51 open remedial actions indicated that no intermediate target dates were
missed and only 1 action was extended. The IRS reported the target date extended related to the
Integrated Financial System. Our review also indicated that 40 of the 51 open remedial actions
were new for Calendar Year 2006. The 40 new actions all relate to computer security and
replaced 11 existing actions that were all scheduled for completion by FY 2008. The new
actions’ completion dates range from FY 2007 through FY 2013. The IRS reported that the
40 new actions were added to address extensive gaps identified through an indepth analysis of its
computer security material weakness plan.
Although the explanations provided by the IRS for extending 1 and replacing 11 existing actions
are reasonable, the lengthy target completion dates associated with many of the new actions
further hinder the IRS’ ability to timely resolve the critical issues that cause its noncompliance
with the FFMIA. We reviewed the Government Accountability Office’s FY 2006 financial
statement audit and did not identify any additional recommendations that would have required
inclusion in the IRS’ remediation plan.
Our analysis of individual project resources listed in the December 31, 2006, remediation plan
indicated that information on the estimated resources needed to implement the 40 open remedial
actions relating to computer security was either incomplete or differed significantly from the
detailed supporting documentation provided by the IRS. For example, resource estimates were
not provided for any anticipated costs in FY 2008 and beyond. Also, $58.5 million reported for
FY 2007 calculated costs related to computer security remediation actions could either not be
verified or differed significantly from the detailed supporting documentation provided. During
our audit fieldwork, IRS functional personnel stated the $58.5 million in calculated FY 2007
costs was based on a significantly outdated estimate.
Although the IRS did indicate in the December 31, 2006, FFMIA plan that it was presently in the
process of recalculating computer security-related costs, in our opinion, presenting an outdated
and unsupported estimate of calculated FY 2007 costs is confusing and potentially misleading.
We advised the IRS of our concerns on March 8, 2007, and it has subsequently stated that all
FY 2007 cost information related to computer security remediation actions will be corrected and
incorporated into the June 30, 2007, FFMIA plan. As part of this effort, cost estimates for
anticipated expenditures in FY 2008 and beyond will also be developed, as applicable.


                                                                                                 2
                The Internal Revenue Service’s Federal Financial Management
                 Improvement Act Remediation Plan As of December 31, 2006




Recommendation
We recommended the IRS Associate Chief Financial Officer for Corporate Planning and Internal
Control develop procedures requiring that all remediation actions presented in future FFMIA
plans be reviewed to ensure they are supported by a calculation of resource needs by year and the
calculations be compared to detailed supporting documentation on at least a sample basis.

Response
IRS management agreed with our recommendation. The Associate Chief Financial Officer for
Corporate Planning and Internal Control will develop procedures requiring that owners of all
remediation actions presented in future FFMIA plans identify resources for all years covered by
the actions and that the owners provide documentation to support the identified resources.
Where the supporting documentation is unclear or contradictory, the Associate Chief Financial
Officer for Corporate Planning and Internal Control will obtain clarification from the owner of
the remediation action. Additionally, the Office of Internal Control will review all plans to
ensure they are supported by a calculation of resource needs by year and will compare the
calculations to detailed supporting documentation to ensure compliance with reporting
procedures. Management’s complete response to the discussion draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or Nancy
Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                  3
                      The Internal Revenue Service’s Federal Financial Management
                       Improvement Act Remediation Plan As of December 31, 2006




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Completion Dates for Remedial Actions Relating to Computer
          Security Material Weaknesses Extend to Fiscal Year 2013 .........................Page 2
          Resource Information Regarding Many Remedial Actions Is
          Unsupported and Incomplete ........................................................................Page 3
                    Recommendation 1:..........................................................Page 4


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Outcome Measure ................................................................Page 9
          Appendix V – Financial Management Remediation Action Projects...........Page 10
          Appendix VI – Management’s Response to the Discussion Draft Report....Page 12
        The Internal Revenue Service’s Federal Financial Management
         Improvement Act Remediation Plan As of December 31, 2006




                       Abbreviations

FFMIA            Federal Financial Management Improvement Act of 1996
FY               Fiscal Year
IRS              Internal Revenue Service
                      The Internal Revenue Service’s Federal Financial Management
                       Improvement Act Remediation Plan As of December 31, 2006




                                           Background

The Federal Financial Management Improvement Act of 1996 (FFMIA)1 established in statute
certain financial management systems requirements that were already established by Executive
Branch policies. The FFMIA was intended to advance Federal financial management by
ensuring that Federal management systems can and do provide reliable, consistent disclosure of
financial data. Further, this disclosure should be done on a basis that is uniform across the
Federal Government from year to year, by consistently using professionally accepted accounting
standards. Specifically, Section (§) 803 (a) of the FFMIA requires each agency to implement
and maintain systems that comply substantially with:
      •    Federal financial management systems requirements.
      •    Applicable Federal Government accounting standards.
      •    The Government Standard General Ledger at the transaction level.
Auditors are required to report on agency compliance with the three stated requirements as part
of financial statement audit reports. Agency heads are required to determine, based on the audit
report and other information, whether their financial management systems comply with the
FFMIA. If the agency’s financial systems do not comply, the agency is required to develop a
remediation plan that describes the resources, remedies, and intermediate target dates for
achieving compliance and file the plans with the Office of Management and Budget.
In addition, § 804 (b) of the FFMIA requires agency Inspectors General to report to Congress
instances when and reasons why an agency has not met the intermediate target dates established
in its remediation plan.
In the last several years, the Government Accountability Office has reported numerous financial
management weaknesses in its audits of the Internal Revenue Service’s (IRS) annual financial
statements and related assessments of internal control. Due to these weaknesses, the IRS’
financial management systems have not been in substantial compliance with the requirements of
the FFMIA; consequently, the IRS has been required to prepare and maintain a remediation plan.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the Chief Financial Officer during the period November 2006 through March 2007. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.


1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                          Page 1
                The Internal Revenue Service’s Federal Financial Management
                 Improvement Act Remediation Plan As of December 31, 2006




                                Results of Review

Completion Dates for Remedial Actions Relating to Computer
Security Material Weaknesses Extend to Fiscal Year 2013
During Calendar Year 2006, the IRS reported it canceled 11 and added 61 remedial actions to the
38 open remedial actions listed in its December 31, 2005, remediation plan. The Computer
Security and Custodial Detail Data Base projects accounted for most of these new remedial
actions. The 11 canceled remedial actions related to computer security and were replaced by
40 new actions.
Also during Calendar Year 2006, the IRS reported it completed 37 remediation actions, leaving
51 open remedial actions in its December 31, 2006, remediation plan. All of these open actions
were associated with five major financial management projects or issues (see Appendix V for a
description of each project).
   •   Custodial Detail Data Base – 8 remedial actions.
   •   Employment and Excise Tax – 1 remedial action.
   •   Automated Trust Fund Recovery System – 1 remedial action.
   •   Integrated Financial System – 1 remedial action.
   •   Computer Security – 40 remedial actions.
Our review of the 51 open remedial actions indicated that no intermediate target dates were
missed and only 1 action was extended. The IRS reported the target date extended related to the
Integrated Financial System. Specifically, the IRS reported that after December 2009, the
Integrated Financial System would no longer be supported by the vendor. Accordingly, a new
action plan is being developed to address enhancing cost data and better integrating budget and
performance data.
Our review also indicated that 40 of the 51 open remedial actions were new for Calendar
Year 2006. The 40 new actions all relate to computer security and replaced 11 existing actions
that were scheduled for completion by Fiscal Year (FY) 2008. The new actions’ completion
dates range from FY 2007 through FY 2013. The IRS reported in its remediation plan that the
40 new actions were added to address extensive gaps identified through an indepth analysis of its
computer security material weakness plan.
Although the explanations provided by the IRS for extending 1 and replacing 11 existing actions
are reasonable, the lengthy target completion dates associated with many of the new actions

                                                                                          Page 2
                The Internal Revenue Service’s Federal Financial Management
                 Improvement Act Remediation Plan As of December 31, 2006



further hinder the IRS’ ability to timely resolve the critical issues that cause its noncompliance
with the FFMIA. We were unable to fully evaluate the reason for the lengthy completion dates
because the IRS did not provide complete information regarding the resources necessary to
implement the 40 new remedial actions. Similarly, until the IRS completes its new action plan to
address enhancing cost data and better integrating budget and performance data, we will be
unable to fully evaluate its progress on these issues.
Each of the 51 open remedial actions had an intermediate target date that extended more than
3 years from the initial determination that IRS financial management systems were not in
substantial compliance with the FFMIA. As required, the IRS, through the Department of the
Treasury, properly obtained Office of Management and Budget concurrence to extend its
corrective actions beyond the 3-year limitation.
We reviewed the Government Accountability Office’s FY 2006 financial statement audit and did
not identify any additional recommendations that would have required inclusion in the IRS’
remediation plan.

Resource Information Regarding Many Remedial Actions Is
Unsupported and Incomplete
Our analysis of the resource estimates for completing remedial actions in the
December 31, 2006, remediation plan indicated that resource information regarding the 40 open
remedial actions relating to computer security were either incomplete or differed significantly
from the detailed supporting documentation provided by the IRS. Specifically:
   •   Resource estimates were not provided for any anticipated FY 2008 and beyond costs
       associated with remediation actions related to computer security. Our review identified
       19 computer security-related actions with target completion dates in FY 2008, 3 with
       target completion dates in FY 2009, 4 with target completion dates in FY 2011, 1 with a
       target completion date in FY 2012, and 1 with a target completion date in FY 2013.
       Resource estimates are a critical component of the FFMIA remediation plan process and
       should be provided for all open remediation actions.
   •   Resource estimates totaling $58.5 million for FY 2007 costs related to computer security
       remediation actions could either not be verified or differed significantly from the detailed
       supporting documentation provided. For example, the IRS reported a resource estimate
       for FY 2007 of $21 million for contractor support related to audit trail enhancements as
       of December 31, 2006. However, the supporting documentation provided by the IRS for
       these enhancements identified anticipated costs of only $1.6 million in FY 2007 for this
       area. During our audit fieldwork, IRS functional personnel, responsible for computer
       security remediation actions, stated the $58.5 million in FY 2007 calculated costs
       reported was based on a significantly outdated estimate.


                                                                                            Page 3
                 The Internal Revenue Service’s Federal Financial Management
                  Improvement Act Remediation Plan As of December 31, 2006



Although the IRS did indicate in the December 31, 2006, FFMIA plan that it is presently in the
process of recalculating computer security enhancement-related costs, in our opinion, presenting
outdated and unsupported costs as calculated FY 2007 costs is confusing and potentially
misleading. We advised the IRS of our concerns on March 8, 2007, and it has subsequently
stated that all FY 2007 cost information related to computer security enhancement remediation
action items will be corrected and incorporated into the June 30, 2007, FFMIA plan. As part of
this effort, cost estimates for FY 2008 and beyond will also be developed, as applicable.
Remediation plans should describe the resources, remedies, and intermediate target dates for
achieving compliance with the FFMIA. The Chief Financial Officer function has overall
responsibility for verifying the accuracy of remediation plan status updates, associated resources,
and the preparation of the final quarterly report for submission to the Office of Management and
Budget and the Department of the Treasury. The Chief Financial Officer function informed us
that they did not compare any of the resource information related to computer security presented
in the December 31, 2006, FFMIA plan to supporting documentation.
Without a timely, accurate, and complete estimate of the resources needed to fully implement all
of the remediation actions presented in the FFMIA plan, the IRS cannot effectively evaluate the
commitments needed to correct the cited weaknesses. This could delay the completion of the
remediation actions due to insufficient resources being available when needed. Furthermore,
until these actions are taken, the weaknesses in the IRS’ financial management system related to
computer security issues will continue to exist. In addition, we will be unable to fully assess the
IRS’ progress in resolving many of the significant findings and recommendations reported in the
FFMIA remediation plan.

Recommendation
Recommendation 1: The IRS Associate Chief Financial Officer for Corporate Planning and
Internal Control should develop procedures requiring that all remediation actions presented in
future FFMIA plans be reviewed to ensure they are supported by a calculation of resource needs
by year and the calculations be compared to detailed supporting documentation on at least a
sample basis.
       Management’s Response: The IRS agreed with our recommendation. The
       Associate Chief Financial Officer for Corporate Planning and Internal Control will
       develop procedures requiring that owners of all remediation actions presented in future
       FFMIA plans identify resources for all years covered by the actions and that the owners
       provide documentation to support the identified resources. Where the supporting
       documentation is unclear or contradictory, the Associate Chief Financial Officer for
       Corporate Planning and Internal Control will obtain clarification from the owner of the
       remediation action. Additionally, the Office of Internal Control will review all plans to
       ensure they are supported by a calculation of resource needs by year and will compare the

                                                                                            Page 4
         The Internal Revenue Service’s Federal Financial Management
          Improvement Act Remediation Plan As of December 31, 2006



calculations to detailed supporting documentation to ensure compliance with reporting
procedures.




                                                                                 Page 5
                      The Internal Revenue Service’s Federal Financial Management
                       Improvement Act Remediation Plan As of December 31, 2006



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to report to Congress, as required by the FFMIA,1 any
instances of and reasons for missed intermediate target dates established in the IRS’ FFMIA
remediation plan as of December 31, 2006. We also evaluated, in general, whether the IRS was
meeting its responsibilities in fulfilling the intent of the FFMIA. To accomplish our objective,
we:
I.         Gained an understanding of the requirements of the FFMIA, including Office of
           Management and Budget and Department of the Treasury guidance for compliance with
           the Act.
II.        Determined whether the IRS’ remediation plan was consistent with Government
           Accountability Office recommendations from prior IRS financial audits and related
           financial management reports.
III.       Determined whether (1) the IRS missed any intermediate target dates established in its
           remediation plan, (2) intermediate target dates were extended without sufficient
           documentation to support the revised date, and (3) proper approval was obtained for
           remedial actions extending more than 3 years.
IV.        Determined whether (1) the IRS remediation plan had established resource needs for
           remedial actions and (2) the resources presented were consistent with supporting
           documentation.




1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                             Page 6
               The Internal Revenue Service’s Federal Financial Management
                Improvement Act Remediation Plan As of December 31, 2006



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Joseph F. Cooney, Lead Auditor
Richard Louden, Senior Auditor
Rashme Sawhney, Auditor




                                                                                    Page 7
               The Internal Revenue Service’s Federal Financial Management
                Improvement Act Remediation Plan As of December 31, 2006



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Financial Officer OS:CFO




                                                                        Page 8
                The Internal Revenue Service’s Federal Financial Management
                 Improvement Act Remediation Plan As of December 31, 2006



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
       •   Reliability of Information – Actual; $58.5 million in reported FFMIA remediation
           plan FY 2007 resources which could either not be verified or differed materially from
           the detailed supporting documentation provided by the IRS (see page 3).

Methodology Used to Measure the Reported Benefit:
To determine whether the IRS reliably reported remediation plan resources, we compared
remediation action resources reported to supporting documentation and interviewed selected IRS
personnel. Our analysis determined that $58.5 million in FY 2007 reported resources either
could not be verified or differed significantly from the detailed supporting documentation
provided by the IRS.




                                                                                          Page 9
                    The Internal Revenue Service’s Federal Financial Management
                     Improvement Act Remediation Plan As of December 31, 2006



                                                                                                   Appendix V

    Financial Management Remediation Action Projects

The IRS has initiated five financial management projects in response to the various material
weaknesses identified by the Government Accountability Office and the Treasury Inspector
General for Tax Administration relating to the FFMIA.1 The IRS described the functionality of
the projects contained in its remediation plan as follows:
Custodial Detail Data Base: To more accurately report a single balance due for Trust Fund
Recovery Penalty assessments and determine areas for improvement, the IRS Chief Financial
Officer developed a Trust Fund Recovery Penalty database. The Trust Fund Recovery Penalty
database is the first release of the Financial Management Information System enhancement to the
Custodial Detail Data Base that will enable the IRS to address many of the outstanding financial
management recommendations. Full Custodial Detail Data Base functionality will be
accomplished in four releases.
     •   Release I – Unpaid Assessments subledger.
     •   Release II – Master File2 transactions and Electronic Funds Transfer Payment System3
         preposted transactions.
     •   Release III – All other preposted revenue receipt transactions and refund transactions.
     •   Release IV – Frozen Credit subledger and Excise Tax Allocations.
Employment and Excise Tax: This project addresses deficiencies in the detailed support for
revenue collected relating to employment and excise taxes. The IRS provided two disclosures to
the FY 2006 financial statements for additional breakouts of Social Security taxes and other
excise taxes collected.
Automated Trust Fund Recovery System: The Automated Trust Fund Recovery System
provides the capability to systematically upload Trust Fund Recovery Penalty assessments from
the Area Offices4 and properly cross-references payments received for assessments made. The
Automated Trust Fund Recovery System replaced manual processes for assessing penalties and
cross-referencing payments and will ensure compliance with Government Accountability Office

1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  The IRS system that allows taxpayers to make their Federal tax payments electronically.
4
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 10
                   The Internal Revenue Service’s Federal Financial Management
                    Improvement Act Remediation Plan As of December 31, 2006



requirements and accounting standards. All Wage and Investment Division Trust Fund
Recovery Penalty work was transferred to the Small Business/Self-Employed Division
campuses5 on January 2006.
Integrated Financial System: The Integrated Financial System provides the IRS with an
integrated accounting system to account for and control resources. The Integrated Financial
System includes a Core Financial System (General Ledger, Accounts Receivable, Accounts
Payable, Funds and Cost Management, and Financial Reporting), as well as a Budget
Formulation system and a 3-year rolling forecast.
Because the current version of the Integrated Financial System software will no longer be
supported by the vendor after December 2009, the IRS is currently evaluating the cost, benefits,
and risks associated with various replacement options. The IRS is also developing a strategy and
action plan for enhancing cost data and integrating budget and performance data to provide more
robust data for resource allocation decisions in FY 2008. The plan is under development and
scheduled for completion during the fourth quarter of FY 2007.
Computer Security: This project addresses internal control deficiencies cited in various audits;
initiates efforts to develop controls implemented at campuses, field offices, and post-of-duty
offices to ensure uniformity and consistency; develops appropriate means through which the IRS
can carry out periodic reviews of the effectiveness of policies and procedures, along with means
to address security breaches; updates access control standards to reflect changes in technology
and operating environments; provides computer security training to personnel; and conducts
computer security self-assessment reviews that identify and alleviate vulnerabilities on a
proactive basis.
Based on recent Treasury Inspector General for Tax Administration findings during the review
of the computer security material weakness, the Mission Assurance and Security Services
organization, in partnership with the Chief Information Officer, has developed new program
action plans for the following six issues: (1) Access Controls, (2) Rules of Behavior, (3) Audit
Trails, (4) Training, (5) Process Authorizations (Certifications and Accreditations), and
(6) Disaster Recovery.
A new plan for computer security was developed and approved by the IRS Financial and
Management Controls Executive Steering Committee on September 19, 2006.




5
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.


                                                                                                        Page 11
      The Internal Revenue Service’s Federal Financial Management
       Improvement Act Remediation Plan As of December 31, 2006



                                                      Appendix VI

Management’s Response to the Discussion Draft
                  Report




                                                            Page 12
The Internal Revenue Service’s Federal Financial Management
 Improvement Act Remediation Plan As of December 31, 2006




                                                      Page 13
